No. __________
IN THE

JORGE DE LOS SANTOS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
APPENDICIES TO PETITION FOR A WRIT OF CERTIORARI

CUAUHTEMOC ORTEGA
Federal Public Defender
JAMES H. LOCKLIN *
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Tel: 213-894-2929
Fax: 213-894-0081
Email: James_Locklin@fd.org
Attorneys for Petitioner
* Counsel of Record

Index
Appendix A: Memorandum Decision of the United States Court of Appeals for
the Ninth Circuit (October 27, 2020)................................................................ 1a
Appendix B: Order of the United States Court of Appeals for the Ninth Circuit
Denying Petition for Rehearing (January 7, 2020).......................................... 7a
Appendix C: Statutory Provisions ......................................................................... 9a

2

Appendix A

App. 1a

Case: 19-50086, 10/27/2020, ID: 11872650, DktEntry: 38-1, Page 1 of 5

NOT FOR PUBLICATION

FILED
OCT 27 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JORGE DE LOS SANTOS,

U.S. COURT OF APPEALS

No. 19-50086
D.C. No. CR 18-477-PA
MEMORANDUM

Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
Percy Anderson, District Judge, Presiding
Argued and Submitted August 10, 2020
Pasadena, California
Before: CALLAHAN and BUMATAY, Circuit Judges, and WATSON,** District
Judge.
Defendant, Jorge De Los Santos, pleaded guilty to possession of child
pornography in 2018. As part of Defendant’s plea agreement he agreed to not
oppose certain conditions of supervised release, including one condition at issue in



This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Michael H. Watson, United States District Judge for the
Southern District of Ohio, sitting by designation.
1
App. 2a

Case: 19-50086, 10/27/2020, ID: 11872650, DktEntry: 38-1, Page 2 of 5

this case—i.e. “Defendant shall not reside within direct view of school yards,
parks, public swimming pools, playgrounds, youth centers, video arcade facilities,
or other places primarily used by persons under the age of 18.” Shortly before
sentencing, the district court provided the parties with notice of the conditions of
supervised release it intended to impose. Instead of prohibiting Defendant from
living within “direct view” of places frequented by minors, the district court’s
proposed conditions prohibited Defendant from living within 2,000 feet of those
locations.
At sentencing, Defendant objected to this condition, but he did not offer any
support for his objection beyond referring to the plea agreement’s “direct view”
restriction. The Government did not take a position on the 2,000-foot restriction.
The district court provided numerous reasons for the 2,000-foot restriction,
including that Defendant possessed many more images and videos than necessary
to receive the highest enhancement under the Guidelines, with some of these
images depicting infants and/or sadistic or masochistic conduct; admitted having
an interest in pornography involving children between the ages of 10 and 15; and
had a long history of viewing child pornography.1
The district court imposed a below-Guidelines custodial sentence of 46

1

While the district court did not cite this as a reason for the enhanced condition,
Defendant’s presentence report noted that he was attracted to children he saw in
public places.
2
App. 3a

Case: 19-50086, 10/27/2020, ID: 11872650, DktEntry: 38-1, Page 3 of 5

months’ imprisonment along with a lifetime term of supervised release that
included the 2,000-foot residency restriction.
Defendant appeals only the 2,000-foot residency restriction. We have
jurisdiction pursuant to 28 U.S.C. § 1291 and 18 U.S.C. § 3742(a), and we affirm.
1. We review the district court’s imposition of the 2,000-foot residency
restriction for an abuse of discretion. See United States v. Wolf Child, 699 F.3d
1082, 1089 (9th Cir. 2012). “Because ‘a district court has at its disposal all of the
evidence, its own impressions of a defendant, and wide latitude, . . . we give
considerable deference to [its] determination of the appropriate supervised release
conditions.’” Id. (quoting United States v. Weber, 451 F.3d 552, 557 (9th Cir.
2006)).
2. The district court considered the factors listed at 18 U.S.C. § 3553(a), as
it was required to do. See 18 U.S.C. § 3583(d). It explained how the 2,000-foot
residency restriction was “reasonably related to the goals of deterrence, protection
of the public, and/or defendant rehabilitation,” “involve[d] no greater deprivation
of liberty than [was] reasonably necessary to achieve those goals,” and was
“consistent with any pertinent policy statements issued by the Sentencing
Commission pursuant to 28 U.S.C. § 994(a).” See United States v. Napulou, 593
F.3d 1041, 1044 (9th Cir. 2010).
3. Defendant has not shown that it was substantively unreasonable for the
3
App. 4a

Case: 19-50086, 10/27/2020, ID: 11872650, DktEntry: 38-1, Page 4 of 5

district court to impose a 2,000-foot residency restriction. The district court
explained that it was concerned about potential living situations where Defendant
would not be in direct view of a place frequented by minors but, nevertheless,
would have children frequently walking past Defendant’s home—for example, if
he lived around the corner from a school. Given Defendant’s admission that he
was sexually attracted to minors, including minors he saw in public, the district
court’s concern was not “illogical, implausible, or without support in inferences
that may be drawn from the record.” See United States v. Hinkson, 585 F.3d 1247,
1262 (9th Cir. 2009) (en banc). Even if the regular presence of children is unlikely
to lead Defendant to physically harm a child (something we need not decide), it is
logical to infer that it could cause Defendant to relapse into viewing child
pornography.
4. On appeal, Defendant argues that the 2,000-foot restriction may severely
restrict his housing options and make rehabilitation more difficult. This argument
finds some support in In re Taylor, 60 Cal. 4th 1019 (2015), United States v. Rudd,
662 F.3d 1257 (9th Cir. 2011), and United States v. Collins, 684 F.3d 873 (9th Cir.
2012). However, Defendant did not present evidence supporting this argument at
sentencing or even mention this potential concern when he objected to the
modified condition. Therefore, the district court did not abuse its discretion by not
taking this into account when fashioning its sentence.
4
App. 5a

Case: 19-50086, 10/27/2020, ID: 11872650, DktEntry: 38-1, Page 5 of 5

AFFIRMED.

5
App. 6a

Appendix B

App. 7a

Case: 19-50086, 01/07/2021, ID: 11955361, DktEntry: 43, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JAN 7 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JORGE DE LOS SANTOS, AKA Jorge
Luis De Los Santos Contreras,

No.

19-50086

D.C. No. 2:18-cr-00477-PA-1
Central District of California,
Los Angeles
ORDER

Defendant-Appellant.
Before: CALLAHAN and BUMATAY, Circuit Judges, and M. WATSON,*
District Judge.
The panel unanimously voted to deny the petition for panel rehearing: Judges
Callahan and Bumatay have voted to deny the petition for rehearing en banc, and
Judge Watson has so recommended. Fed. R. App. P. 40. The full court has been
advised of the petition for rehearing en banc, and no judge of the court has requested
a vote on it. Fed. R. App. P. 35. The petition for panel rehearing or rehearing en
banc, (Dkt. No. 42), is therefore DENIED.

*

The Honorable Michael H. Watson, United States District Judge for
the Southern District of Ohio, sitting by designation.
App. 8a

Appendix C

App. 9a

18 U.S.C. § 3553(a) provides:
Factors to be considered in imposing a sentence. – The court shall impose a
sentence sufficient, but not greater than necessary, to comply with the purposes
set forth in paragraph (2) of this subsection. The court, in determining the
particular sentence to be imposed, shall consider –
(1) the nature and circumstances of the offense and the history and
characteristics of the defendant;
(2) the need for the sentence imposed –
(A) to reflect the seriousness of the offense, to promote respect for the law,
and to provide just punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further crimes of the defendant; and
(D) to provide the defendant with needed educational or vocational
training, medical care, or other correctional treatment in the most
effective manner;
(3) the kinds of sentences available;
(4) the kinds of sentence and the sentencing range established for –
(A) the applicable category of offense committed by the applicable category
of defendant as set forth in the guidelines –
(i) issued by the Sentencing Commission pursuant to section 994(a)(1)
of title 28, United States Code, subject to any amendments made to
such guidelines by act of Congress (regardless of whether such

App. 10a

amendments have yet to be incorporated by the Sentencing
Commission into amendments issued under section 994(p) of title
28); and
(ii) that, except as provided in section 3742(g), are in effect on the date
the defendant is sentenced; or
(B) in the case of a violation of probation or supervised release, the
applicable guidelines or policy statements issued by the Sentencing
Commission pursuant to section 994(a)(3) of title 28, United States
Code, taking into account any amendments made to such guidelines or
policy statements by act of Congress (regardless of whether such
amendments have yet to be incorporated by the Sentencing
Commission into amendments issued under section 994(p) of title 28);
(5) any pertinent policy statement –
(A) issued by the Sentencing Commission pursuant to section 994(a)(2) of
title 28, United States Code, subject to any amendments made to such
policy statement by act of Congress (regardless of whether such
amendments have yet to be incorporated by the Sentencing
Commission into amendments issued under section 994(p) of title 28);
and
(B) that, except as provided in section 3742(g), is in effect on the date the
defendant is sentenced.

App. 11a

(6) the need to avoid unwarranted sentence disparities among defendants
with similar records who have been found guilty of similar conduct; and
(7) the need to provide restitution to any victims of the offense.
18 U.S.C. § 3583(d) provides:
Conditions of supervised release. – The court shall order, as an explicit condition
of supervised release, that the defendant not commit another Federal, State, or
local crime during the term of supervision, that the defendant make restitution
in accordance with sections 3663 and 3663A, or any other statute authorizing a
sentence of restitution, and that the defendant not unlawfully possess a
controlled substance. The court shall order as an explicit condition of supervised
release for a defendant convicted for the first time of a domestic violence crime
as defined in section 3561(b) that the defendant attend a public, private, or
private nonprofit offender rehabilitation program that has been approved by the
court, in consultation with a State Coalition Against Domestic Violence or other
appropriate experts, if an approved program is readily available within a 50-mile
radius of the legal residence of the defendant. The court shall order, as an
explicit condition of supervised release for a person required to register under
the Sex Offender Registration and Notification Act, that the person comply with
the requirements of that Act. The court shall order, as an explicit condition of
supervised release, that the defendant cooperate in the collection of a DNA
sample from the defendant, if the collection of such a sample is authorized
pursuant to section 3 of the DNA Analysis Backlog Elimination Act of 2000. The

App. 12a

court shall also order, as an explicit condition of supervised release, that the
defendant refrain from any unlawful use of a controlled substance and submit to
a drug test within 15 days of release on supervised release and at least 2
periodic drug tests thereafter (as determined by the court) for use of a controlled
substance. The condition stated in the preceding sentence may be ameliorated
or suspended by the court as provided in section 3563(a)(4). The results of a
drug test administered in accordance with the preceding subsection shall be
subject to confirmation only if the results are positive, the defendant is subject to
possible imprisonment for such failure, and either the defendant denies the
accuracy of such test or there is some other reason to question the results of the
test. A drug test confirmation shall be a urine drug test confirmed using gas
chromatography/mass spectrometry techniques or such test as the Director of
the Administrative Office of the United States Courts after consultation with the
Secretary of Health and Human Services may determine to be of equivalent
accuracy. The court shall consider whether the availability of appropriate
substance abuse treatment programs, or an individual’s current or past
participation in such programs, warrants an exception in accordance with
United States Sentencing Commission guidelines from the rule of section 3583(g)
when considering any action against a defendant who fails a drug test. The
court may order, as a further condition of supervised release, to the extent that
such condition C

App. 13a

(1) is reasonably related to the factors set forth in section 3553(a)(1),
(a)(2)(B), (a)(2)(C), and (a)(2)(D);
(2) involves no greater deprivation of liberty than is reasonably necessary for
the purposes set forth in section 3553(a)(2)(B), (a)(2)(C), and (a)(2)(D); and
(3) is consistent with any pertinent policy statements issued by the
Sentencing Commission pursuant to 28 U.S.C. 994(a);
any condition set forth as a discretionary condition of probation in section
3563(b) and any other condition it considers to be appropriate, provided, however
that a condition set forth in subsection 3563(b)(10) shall be imposed only for a
violation of a condition of supervised release in accordance with section
3583(e)(2) and only when facilities are available. If an alien defendant is subject
to deportation, the court may provide, as a condition of supervised release, that
he be deported and remain outside the United States, and may order that he be
delivered to a duly authorized immigration official for such deportation. The
court may order, as an explicit condition of supervised release for a person who
is a felon and required to register under the Sex Offender Registration and
Notification Act, that the person submit his person, and any property, house,
residence, vehicle, papers, computer, other electronic communications or data
storage devices or media, and effects to search at any time, with or without a
warrant, by any law enforcement or probation officer with reasonable suspicion
concerning a violation of a condition of supervised release or unlawful conduct by

App. 14a

the person, and by any probation officer in the lawful discharge of the officer’s
supervision functions.
U.S.S.G. § 5D1.3(b) provides:
Discretionary Conditions[.] The court may impose other conditions of supervised
release to the extent that such conditions (1) are reasonably related to (A) the
nature and circumstances of the offense and the history and characteristics of
the defendant; (B) the need for the sentence imposed to afford adequate
deterrence to criminal conduct; (C) the need to protect the public from further
crimes of the defendant; and (D) the need to provide the defendant with needed
educational or vocational training, medical care, or other correctional treatment
in the most effective manner; and (2) involve no greater deprivation of liberty
than is reasonably necessary for the purposes set forth above and are consistent
with any pertinent policy statements issued by the Sentencing Commission.

App. 15a

